APPENDIX A
(Judgment and Opinion of the United States Court of Appeals for the
Fifth Circuit)

Case: 19-11032

Document: 00515478225

Page: 1

Date Filed: 07/06/2020

IN THE UNITED STATES COURT OF APPEALS
United States Court of Appeals
FOR THE FIFTH CIRCUIT
Fifth Circuit
_______________________

FILED
July 6, 2020

No. 19-11032
Summary Calendar
_______________________

Lyle W. Cayce
Clerk

D.C. Docket No. 4:19-CR-39-4
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
ANTRANETTE CANADY,
Defendant - Appellant
Appeal from the United States District Court
for the Northern District of Texas
Before HIGGINBOTHAM, HO, and ENGELHARDT, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
affirmed.

Case: 19-11032

Document: 00515478203

Page: 1

Date Filed: 07/06/2020

IN THE UNITED STATES COURT OF APPEALS
Court of Appeals
FOR THE FIFTH CIRCUIT United States
Fifth Circuit

FILED
July 6, 2020

No. 19-11032
Summary Calendar

Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
ANTRANETTE CANADY,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-39-4
Before HIGGINBOTHAM, HO, and ENGELHARDT, Circuit Judges.
PER CURIAM:*
Antranette Canady pleaded guilty to bank robbery and was sentenced to
151 months in prison and three years of supervised release.

She now

challenges as substantively unreasonable the imposition of a standard
condition of supervised release allowing the probation officer to visit her “at
any time at home or elsewhere.” As a threshold matter, the Government
contends Canady’s claim is not ripe for review. Ripeness is a jurisdictional

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5 TH
CIR. R. 47.5.4.
*

Case: 19-11032

Document: 00515478203

Page: 2

Date Filed: 07/06/2020

No. 19-11032
issue that this court reviews de novo. See United States v. Payton, 959 F.3d
654, 656 (5th Cir. 2020). Canady’s claim is ripe because the supervised release
condition at issue is mandatory. See id.
This court reviews Canady’s preserved substantive reasonableness
challenge for abuse of discretion. See id. Although a district court has wide
discretion in imposing supervised release conditions, its discretion is limited
by statute. See 18 U.S.C. § 3583(d); see also United States v. Duke, 788 F.3d
392, 398 (5th Cir. 2015).

Canady argues the visitation condition is not

narrowly tailored as required by § 3583(d)(2) because it lacks any limits on
when and where the probation officer may visit her. Section 3583(d) provides,
in relevant part, that supervised release conditions must involve “no greater
deprivation of liberty than is reasonably necessary” for the purposes of
deterring criminal conduct and protecting the public from further crimes of the
defendant.
In this case, the district court concluded the visitation condition was
necessary based on Canady’s criminal history. Under the circumstances, the
district court did not abuse its discretion in imposing the standard visitation
condition. See Payton, 959 F.3d at 658.
AFFIRMED.

2

APPENDIX B
(Judgment and Sentence of the United States District Court for the
Northern District of Texas)

Case 4:19-cr-00039-O Document 137 Filed 09/12/19

Page 1 of 4 PageID 378

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:19-CR-00039-O(04)
U.S. Marshal’s No.: 58270-177
Megan Fahey, Assistant U.S. Attorney
William Biggs, Attorney for the Defendant

ANTRANETTE CANADY

On April 1, 2019, the defendant, ANTRANETTE CANADY, entered a plea of guilty as to Count One of
the Indictment filed on February 13, 2019. Accordingly, the defendant is adjudged guilty of such Count, which
involves the following offense:
Title & Section

Nature of Offense

Offense Ended

Count

18 U.S.C. §§2113(a) and 2

Bank Robbery

1/17/2019

One

The defendant is sentenced as provided in pages 2 through 4 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count One of the Indictment
filed on February 13, 2019.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.

Sentence imposed September 9, 2019.

REED O’CONNOR
U.S. DISTRICT JUDGE

Signed September 12, 2019.

19-11032.48

Case 4:19-cr-00039-O Document 137 Filed 09/12/19

Page 2 of 4 PageID 379
Page 2 of 4

Judgment in a Criminal Case
Defendant: ANTRANETTE CANADY
Case Number: 4:19-CR-00039-O(4)

IMPRISONMENT
The defendant, ANTRANETTE CANADY, is hereby committed to the custody of the Federal Bureau of
Prisons (BOP) to be imprisoned for a term of One Hundred Fifty-One (151) months as to Count One of the
Indictment filed on February 13, 2019.
The Court recommends to the Bureau of Prisons that the defendant be housed at FMC Carswell, if
eligible.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of
Three (3) years as to Count One of the Indictment filed on February 13, 2019.
While on supervised release, in compliance with the standard conditions of supervision adopted by the
United States Sentencing Commission, the defendant shall:
( 1)
not leave the judicial district without the permission of the Court or probation officer;
( 2) report to the probation officer as directed by the Court or probation officer and submit a truthful
and complete written report within the first five (5) days of each month;
( 3) answer truthfully all inquiries by the probation officer and follow the instructions of the
probation officer;
( 4)
support the defendant's dependents and meet other family responsibilities;
( 5) work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons;
( 6) notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
( 7) refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
( 8) not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
( 9) not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
(10) permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
(11) notify the probation officer within seventy-two (72) hours of being arrested or questioned by a
law enforcement officer;
(12) not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and,
(13) notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to
19-11032.49

Case 4:19-cr-00039-O Document 137 Filed 09/12/19

Page 3 of 4 PageID 380
Page 3 of 4

Judgment in a Criminal Case
Defendant: ANTRANETTE CANADY
Case Number: 4:19-CR-00039-O(4)

confirm the defendant's compliance with such notification requirement, as directed by the
probation officer.
In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;
report in person to the U.S. Probation Office in the district to which the defendant is released from
the custody of the Federal Bureau of Prisons within 72 hours of release;
refrain from any unlawful use of a controlled substance. The defendant must submit to one drug test
within 15 days of release from imprisonment and at least two periodic drug tests thereafter, as determined
by the court;
participate in mental health treatment services as directed by the probation officer until successfully
discharged, which services may include prescribed medications by a licensed physician, with the
defendant contributing to the costs of services rendered (copayment) at a rate of at least $25 per month;
and,
participate in a program approved by the probation officer for treatment of narcotic or drug or alcohol
dependency that will include testing for the detection of substance use, abstaining from the use of
alcohol and all other intoxicants during and after completion of treatment, contributing to the costs of
services rendered (copayment) at the rate of at least $25 per month.
FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the
financial resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

19-11032.50

Case 4:19-cr-00039-O Document 137 Filed 09/12/19

Page 4 of 4 PageID 381
Page 4 of 4

Judgment in a Criminal Case
Defendant: ANTRANETTE CANADY
Case Number: 4:19-CR-00039-O(4)

RETURN
I have executed this judgment as follows:

Defendant delivered on _
at

to
, with a certified copy of this judgment.

United States Marshal
BY
Deputy Marshal

19-11032.51

